No. 19-343
IN THE SUPREME COURT OF THE UNITED STATES
NEW YORK REPUBLICAN STATE COMMITTEE, PETITIONER
V.
SECURITIES AND EXCHANGE COMMISSION

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 6th day of December 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,468 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 6, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 6, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0343
NEW YORK REPUBLICAN STATE COMMITTEE
SEC

JASON TORCHINSKY
HOLTZMAN VOGEL JOSEFIAK TORCHINSKY
PLLC
45 NORTH HILL DRIVE
SUITE 100
WARRENTON, VA 20186
540-341-8808
JTORCHTNSKY@HVJT.LAW

